           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

 PROTECTING PERSONALLY IDENTIFIABLE
         INFORMATION ON THE
  SOCIAL SECURITY ADMINISTRATION’S
            INTRANET SITES

     August 2009    A-12-09-29118




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   August 19, 2009                                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Protecting Personally Identifiable Information on the Social Security Administration’s
        Intranet Sites (A-12-09-29118)


        OBJECTIVE
        Our objective was to determine whether the Social Security Administration’s (SSA)
        Intranet sites were protecting personally identifiable information (PII).

        BACKGROUND

        Office of Management and Budget (OMB) Memorandum M-07-16 requires that
        Executive agencies safeguard PII 1 in the Government’s possession and prevent its
        breach to ensure the Government retains the public’s trust. This responsibility is shared
        by officials accountable for administering operational, privacy, and security programs;
        legal counsel; agencies’ Inspectors General and other law enforcement; and public and
        legislative affairs offices. 2 It is also a function of applicable laws, such as the Federal
        Information Security Management Act of 2002 and the Privacy Act of 1974. 3 OMB
        suggested three procedures to reduce the amount of PII available to unauthorized
        users: 4




        1
          According to OMB M-07-16, PII refers to information which can be used to distinguish or trace an
        individual's identity, such as their name, Social Security number (SSN), biometric records, etc. alone, or
        when combined with other personal or identifying information which is linked or linkable to a specific
        individual, such as date and place of birth, mother’s maiden name, etc.
        2
            OMB M-07-16, page 1.
        3
            Id.
        4
            OMB M-07-16, page 2.
Page 2 - The Commissioner

     reduce the volume of information collected and retained to the minimum necessary;
     limit access to only those individuals who must have such access; and
     use encryption, strong authentication procedures, and other security controls to
      make information unusable by unauthorized individuals.

To meet the OMB requirements, SSA established a PII Executive Steering Committee
(ESC) to provide oversight as well as make recommendations on Agency PII policy to
the Commissioner. SSA also established other groups to oversee the public Internet
site and internal Intranet sites. For example, the Agency established the Web Steering
Committee (WESCO) to facilitate coordination between responsible components on the
development, management, and maintenance of its public Internet site. In addition,
SSA established Internet and Intranet Application Standards Workgroups to oversee the
Internet and Intranet sites. By accessing SSA’s Internet site, the public can learn about
SSA’s programs as well as apply for benefits on-line. Access to SSA’s Intranet sites is
limited to Agency employees. By using SSA’s Intranet sites, SSA employees can view
information related to SSA’s operations, policies, training, etc., through computers
connected to SSA’s computer networks. 5 The general public cannot view SSA’s
Intranet sites because they are protected by a firewall. 6

RESULTS OF REVIEW
Our search of SSA’s Intranet sites detected 179 instances of PII being displayed. We
found most of this PII on regional Intranet sites maintained by SSA’s Office of Disability
Adjudication and Review (ODAR). In addition, we found 11 other instances of exposed
PII on other SSA Intranet sites containing Agency training manuals. After we notified
SSA officials about the exposed PII, it was immediately removed from the Intranet sites.
The Agency lacked a designated component to monitor PII issues related to SSA’s
Internet and Intranet sites. Moreover, SSA had not developed clear and relevant
content standards for safeguarding PII on its websites. This lack of controls may have
contributed to PII being displayed on SSA’s Intranet sites.

PII ON ODAR’S INTRANET SITES

Most of the exposed PII we detected was on ODAR’s regional Intranet sites. However,
we also found instances of displayed PII on other Agency components’ Intranet sites.




5
    Intranet sites can be password-protected to restrict access to a specific group of SSA employees.
6
  A firewall is a software program that acts as a traffic cop and allows only authorized users access to the
information. SSA’s Central Office administers the firewall software.
Page 3 - The Commissioner

PII on SSA Intranet Sites Maintained by ODAR

We found that 2 of ODAR’s regional Intranet sites displayed PII on 168 contractors.
Using SSA’s Intranet search engine, we searched the Intranet sites for PII and found
SSNs, Employer Identification Numbers (EIN), 7 personal addresses, and home
telephone numbers related to ODAR’s contractors (see Figure 1). These contractors
include Hearing Reporters, Interpreters, Medical Experts (ME), and Vocational Experts. 8

                        Figure 1: PII Displayed on ODAR's Intranet Sites
                                      by Contractor Position

                           Interpreters
                               21%


                     Hearing
                    Reporters                                        Medical Experts
                       9%                                                 44%




                           Vocational
                            Experts
                             26%

In most of the cases, the PII was posted on ODAR regional sites intended to assist
other regions in processing hearings. To help manage its growing backlog of pending
hearing claims, ODAR was transferring cases between regions. As a result, hearing
offices in one part of the country were holding hearings related to claimants in a
different part of the country. For instance, an ME at the Bronx Hearing Office in
Region II 9 might be required to present evidence at a hearing 10 transferred to the



7
  An EIN is a nine-digit number the Internal Revenue Service assigns in the following format: XX-
XXXXXXX. According to the Internal Revenue Service, an EIN is also known as a Federal Tax
Identification Number and is used to identify a business entity. Only SSNs/EINs with a person's name
were included in the number of instances identified where PII was displayed on SSA's Intranet sites, while
EINs with an associated business name were not included.
8
 See Appendix C for more information on these contractor positions. Prior SSA Office of the Inspector
General audits addressed the internal use of SSA employee SSNs. See The Social Security
Administration’s Internal Use of Employee’s Social Security Numbers (A-13-04-24046), issued August
2004, and Follow-up: The Social Security Administration’s Internal Use of Employee’s Social Security
Numbers (A-13-07-27164), issued June 2008.
9
    Region II includes New Jersey, New York, and the territory of Puerto Rico.
10
     ODAR has been using video hearings for claims that are transferred from one region to another.
Page 4 - The Commissioner

Pittsburgh, Pennsylvania Hearing Office in Region III. 11 To assist the Pittsburgh
Hearing Office, the contractor’s business information was posted to the Region III’s
Intranet site. 12 However, in this case, the Intranet site was also displaying sensitive
information, such as the ME’s SSN, EIN, home address, and telephone number. We
found that other ODAR regional Intranet sites were better at protecting this PII by only
displaying basic information, such as the contractor’s name and a contact telephone
number.

After we notified ODAR about the exposed PII, staff immediately removed the sites.
Moreover, ODAR staff noted that the Intranet sites in question were no longer being
used to assist with workloads.

ODAR Has a More Secure System to Track Contractor PII

ODAR maintains more secure systems to store contractor PII, including the Case
Processing and Management System (CPMS) 13 and the Web-Enabled Budget and
Administrative Support System (WebBASS). 14 Access to CPMS is based on a user’s
profile 15 and therefore has tighter controls for accessing contractor PII. SSA uses
WebBASS to generate call orders 16 for contractors. Access to WebBASS requires a
user name and password. 17

In addition, ODAR staff stated ODAR’s Division of Information Technology Integration
(DITI) periodically shares an Excel spreadsheet containing hearing office contractor
information with the regional WebBASS points of contact. This spreadsheet assists the
hearing offices when cases are transferred within the regions and hearing offices. DITI
closely controls this contractor spreadsheet and shares it with ODAR employees on a
need-to-know basis.

11
 Region III includes Delaware, Maryland, Pennsylvania, Virginia, West Virginia, and the District of
Columbia.
12
   The regional sites contained other useful information for the assisting hearing office, such as hearing
office contacts, mailing addresses and procedures, hearing calendars, and hotel information.
13
  CPMS is a web-based, user-friendly system that includes interactive screens, a secure and centralized
repository of hearing-related data, scheduling capabilities, hyperlinks to reference material, and interfaces
with other SSA systems.
14
     SSA uses WebBASS to post and track information about administrative and budgetary items.
15
  A user profile is a collection of personal data associated to a specific user and, as such, contains a
digital representation of a person's identity.
16
     A call order is a budget agreement to pay a contractor for its services.
17
  CPMS uses a Contractor Key to interface with WebBASS. The Contractor Key is sent from CPMS to
WebBASS where it is matched with the Contractor’s name, Blanket Purchase Agreement number and
other identifying information.
Page 5 - The Commissioner

PII on Other SSA Regional Intranet Sites

We found 11 other instances of PII on other SSA Intranet sites. In addition to SSNs, we
found personal addresses, home telephone numbers, and wages displayed on these
Intranet sites. The sites were used for posting training manuals to operate SSA’s
claimant tracking systems. Of the 11 instances,

     7 contained valid SSNs, but the name did not match SSA’s Numident Record, 18 and
     4 contained valid SSNs with names that matched SSA’s Numident Record.

We shared the Intranet links containing PII with SSA’s Webmaster, as well as the web
managers responsible for creating and maintaining these Intranet sites. We suggested
that the web managers replace the valid SSNs with invalid SSNs such as those
containing “00” in the group number, 19 since SSA does not issue SSNs with this group
number. The web managers either modified or removed the Intranet sites containing
the PII.

INTERNAL CONTROLS OVER SSA’S INTERNET AND INTRANET

The Agency lacked a designated component responsible for overseeing PII-related
issues on SSA’s Internet and Intranet sites. In addition, SSA has not developed clear,
relevant content standards for safeguarding PII on its web sites. This lack of oversight
may have contributed to PII being displayed on SSA’s Intranet sites.

Lack of PII Controls over the Internet and Intranet

In our review of the Internet and Intranet workgroups, as well as discussions with staff in
the Office of the Chief Information Officer (OCIO) and Office of Communications
(OCOMM), we learned that while SSA has a number of organizations reviewing either
PII or the content of the Internet and Intranet sites, no single organization is responsible
for preventing PII from being displayed on these sites. For instance, the PII ESC
charter does not specifically address the role of the Internet or Intranet sites in
disseminating information that could contain PII. 20

Moreover, WESCO’s mission regarding the Internet did not mention the role of the
Committee in protecting PII. 21 SSA staff told us that WESCO had coordinated meetings

18
   SSA’s Numident houses records of original and replacement SSN cards issued over an individual’s
lifetime, as well as identifying information, such as date of birth, place of birth, and parents’ names.
19
  Within each area, the group number (middle two digits) range from 01 to 99 but are not assigned in
consecutive order.
20
     See Appendix D for more information on the PII ESC.
21
     See Appendix E for more information on the WESCO.
Page 6 - The Commissioner

with SSA’s regional Intranet web managers where PII was discussed. However,
WESCO relied on the regional Intranet web managers to control PII displayed on
regional Intranet sites.

Finally, we found that while SSA’s Internet and Intranet Application Standards
Workgroups have established standards for displaying information on the Agency’s
websites, these standards do not discuss controlling the display of PII. The missions of
these workgroups relate more to the design of the application rather than its content. 22

We also found some general content standards for websites on a Web Governance
website. The site noted “Sensitive, restricted, or classified information or information
that contains PII (such as SSNs) must not be included in any web-based file that could
be retrieved using a search engine.” However, it appeared this guidance was directed
at only the Internet sites, and it was not clear what component, if any, was required to
periodically monitor compliance with this provision.

We also spoke to OCIO and OCOMM staff to determine what component had overall
responsibility for safeguarding PII at the Agency. OCIO sets Agency policy over PII and
is responsible for ensuring OMB mandates are followed, while OCOMM has control and
provides guidance over SSA's Internet and Intranet sites. However, neither OCIO nor
OCOMM developed content standards for safeguarding PII on SSA’s websites, and
staff in both offices were unaware of any group charged with this responsibility.

The lack of oversight may have contributed to the PII problems we found on the Intranet
sites. Even though the Intranet sites are within SSA’s firewall and is not available to the
public, the posted information is still available to employees in SSA and can be retrieved
using a search engine. Establishing a workgroup with oversight of PII on the Internet
and Intranet sites, or adding this to the mission of an existing workgroup, would ensure
SSA is following the OMB mandates on the protection of PII.

CONCLUSION AND RECOMMENDATIONS
Our review found PII, including names, SSNs, EINs, home addresses, and wage
information, was being displayed on SSA’s Intranet sites. Agency Web managers took
immediate action to modify or remove the identified Intranet sites. However, while the
Agency has a number of groups monitoring PII as well as the Internet and Intranet sites,
we could not locate a single organization responsible for preventing PII from being
displayed on these sites. This lack of oversight may have contributed to PII being
displayed on SSA’s Intranet sites.



22
  For example, per the Intranet Application Standards Workgroup’s website, the Workgroup provides the
Agency with a set of Intranet interface design standards for the development of Intranet applications. The
Standards provide application developers with a common set of requirements for Webpage, styles,
widgets, and controls. The requirements describe how the widget, control, and application should interact
with the user in compliance with Agency and Government security policy standards.
Page 7 - The Commissioner

To reduce the risk of PII being displayed on SSA’s Internet and Intranet sites, we
recommend that SSA:

1. Designate a component with the responsibility of (a) developing PII safeguard
   policies over the Internet and Intranet and (b) ensuring adherence with these new
   policies.

2. Designate a component with the responsibility of periodically reviewing Internet and
   Intranet sites to ensure employee and contractor PII is protected. Such reviews
   should become part of the Agency’s internal control structure.

AGENCY COMMENTS

The Agency agreed with our recommendations. See Appendix F for the full text of
SSA’s comments.



                                                S
                                                Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Hearing Office Organization Chart and Position Descriptions

APPENDIX D – Personally Identifiable Information Executive Steering Committee

APPENDIX E – Web Steering Committee

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgements
                                                           Appendix A

Acronyms
ALJ       Administrative Law Judge
COSS      Commissioner of Social Security
CPMS      Case Processing and Management System
DITI      Division of Information Technology Integration
EIN       Employer Identification Number
ESC       Executive Steering Committee
HR        Hearing Reporter
ME        Medical Expert
OCIO      Office of the Chief Information Officer
OCOMM     Office of Communications
ODAR      Office of Disability Adjudication and Review
OIG       Office of the Inspector General
OMB       Office of Management and Budget
PII       Personally Identifiable Information
SSA       Social Security Administration
SSN       Social Security Number
VE        Vocational Expert
WebBASS   Web-Enabled Budget and Administrative Support System
WESCO     Web Steering Committee
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we:

      Reviewed Social Security Administration (SSA) policies and procedures
       governing the controls over personally identifiable information (PII) as well as
       employee guidelines established in SSA's Information Systems Security
       Handbook.

      Reviewed Office of Management and Budget Memorandum M-07-16
       Safeguarding Against and Responding to the Breach of Personally Identifiable
       Information.

      Reviewed prior Office of the Inspector General audits on internal use of Social
       Security numbers (SSN) and controls over PII.

      Using SSA’s Intranet search engine, searched SSA’s Intranet sites using the
       keyword "SSN" to determine whether PII was being displayed on SSA’s Intranet
       sites. Our search revealed over 80,000 Intranet sites with a reference to the
       keyword “SSN.” We examined the first 280 sites for PII.

      Notified SSA’s Webmaster, the Office of Disability Adjudication and Review’s
       (ODAR) Webmaster, and Regional web managers about the PII found on their
       Intranet sites. We shared the Intranet links containing the PII with the Web
       managers. We verified that the Intranet sites containing PII were either removed
       or appropriately modified.

      Interviewed ODAR headquarters and regional office staff, SSA’s Webmaster,
       staff at the Offices of the Chief Information Officer and Communications, and a
       member of SSA’s Web Steering Committee.

We performed our review of SSA’s Intranet sites from December 2008 through
March 2009 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.
                                                                                        Appendix C

Hearing Office Organization Chart and Position
Descriptions
Below is an example of a hearing office organization chart for a medium-size hearing
office with related position descriptions for contracted personnel who assist the Agency.



                                             HOCALJ
           ALJ           ALJ   ALJ                                          ALJ         ALJ        ALJ




                                          Hearing Office
                                            Director



                                               Group
    Contracted Personnel
                                             Supervisor
    Hearing Reporters
    Interpreters
    Medical Experts
    Vocational Experts
                                        Lead Case Technician
                                        Senior Case Technicians           Attorney Advisers
                                        Case Technicians                  Paralegal Analysts



                                                                  Hearing Office Systems Administrator
    Receptionist
                                     = Management                              Administrative Assistant
    Case Intake Analyst
                                     = Bargaining Unit Position
    Contact Representative
                                     = Non-bargaining Position




                                                  C-1
                HEARING OFFICE ROLES AND RESPONSIBILITIES
                       OF CONTRACTED PERSONNEL

   Title                             Roles and Responsibilities
Hearing        The HR’s duties are to
Reporters
(HR)                  be present at the designated hearing site on the date and time
                       specified;
                      set up and test the digital recording equipment;
                      record the proper identification information;
                      monitor the recording equipment to ensure it is functioning
                       properly and a verbatim record of the hearing proceedings is
                       made on the CD during the hearing;
                      take notes of hearing testimony, ensuring administrative law
                       judge (ALJ) directives pertaining to additional evidence and other
                       needed documents are noted; and
                      place CD in envelope and place with notes in a designated area
                       in the hearing room after the hearing.

Interpreters   The Social Security Administration provides interpreter services, at no
               cost, to assist non-English speaking claimants who have difficulty
               understanding or communicating in English during any part of the
               hearing process. The interpreter must accurately interpret each word
               spoken during the hearing for the claimant and, as the claimant
               answers, listen and render the English version.

Medical        An ALJ may need to obtain an ME’s opinion, either in testimony at a
Experts        hearing or in responses to written interrogatories, when the
(ME)
                      ALJ is determining whether a claimant’s impairment(s) meets or
                       equals a listed impairment(s);
                      ALJ is determining usual dosage and effect of drugs and other
                       forms of therapy;
                      ALJ is assessing a claimant’s failure to follow prescribed
                       treatment;
                      ALJ is determining the degree of severity of a claimant’s mental
                       impairment;
                      claimant or claimant’s representative has requested an ME at the
                       hearing, and the ALJ agrees ME testimony is necessary;
                      ALJ doubts the adequacy of the medical record in a case and
                       believes an ME may be able to suggest additional relevant
                       evidence;
                      medical evidence is conflicting or confusing, and the ALJ believes
                       an ME may be able to clarify the evidence;



                                           C-2
   Title                            Roles and Responsibilities
ME (Cont.)         significance of clinical or laboratory findings in the record is not
                    clear, and the ALJ believes an ME may be able to explain the
                    findings and assist the ALJ in assessing their clinical significance;
                   ALJ is determining the claimant’s residual functional capacity, for
                    example, the ALJ may ask the ME to explain or clarify the
                    claimant’s functional limitations and abilities as established by the
                    medical evidence of record; or
                   ALJ desires expert medical opinion regarding the onset of an
                    impairment.

             The ALJ must obtain an ME’s opinion, either in testimony at a hearing or
             in responses to written interrogatories, when the Appeals Council or a
             court so orders. In addition, the ALJ must use an ME to evaluate and
             interpret background medical test data.

Vocational   An ALJ may need to obtain a VE’s opinion, either in testimony at a
Experts      hearing or in written responses to interrogatories, when the ALJ is
(VE)         determining whether the

                   claimant’s impairment(s) prevents the performance of past
                    relevant work or
                   claimant’s impairment(s) prevents the performance of any other
                    work and he or she cannot decide the case.

             The ALJ must obtain a VE’s opinion, either in testimony at a hearing or
             in responses to written interrogatories, when directed by the Appeals
             Council or a court.




                                         C-3
                                                                          Appendix D

Personally Identifiable Information Executive
Steering Committee
In its April 2008 charter, the personally identifiable information (PII) Executive Steering
Committee (ESC) states its purpose as follows.

   At the Social Security Administration (SSA), the Commissioner of Social Security (COSS) is
   the final decision-maker regarding PII loss notification and remediation policy. The COSS is
   assisted in this task by the PII [ESC], which provides oversight and recommendations on
   Agency PII policy. The PII ESC also ensures implementation of the Breach Notification
   Policy and plan.

   Stakeholders are the Deputy Commissioners and equivalents of the Agency who are
   responsible for implementation of Government-required PII protection and security policies.
   The ESC serves as a forum that supports the COSS by ensuring that all components are
   aware of evolving PII requirements, SSA policies, and their roles and responsibilities with
   respect to PII policy implementation.

The core responsibilities of the ESC members include:

      Serving as the principal component contact to the ESC for coordination,
       implementation, and enforcement of breach-related policies;
      Serving as the principal component contact to the ESC for addressing and
       reporting PII-specific issues for their component;
      Recommending improvements and updates to Agency breach policies and
       procedures;
      Developing familiarity with Federal and SSA PII directives, policies, procedures,
       guidelines, and standards. Keeping up-to-date on policy changes and advising
       their component and Agency management on current and changing
       requirements;
      Representing their component’s interests to the PII ESC. Ensuring that Federal
       PII legislation and policies are implemented in their component. Requesting
       component exceptions to SSA policies and procedures, if exclusion from the
       standard requirement is warranted;
      Advising Agency management on resources required for implementing breach
       requirements; and
      Developing and/or coordinating component PII protection and breach programs
       in conjunction with SSA policies and programs.
                                                                        Appendix E

Web Steering Committee
The Web Steering Committee (WESCO) was established as the Social Security
Administration’s (SSA) Internet organization responsible for (1) facilitating coordination
between responsible components on the development and management of the
Agency’s Internet and (2) maintaining the Internet. All components responsible for a
presence on the Internet are represented in WESCO. In executing its responsibilities,
WESCO is coordinated closely with the Offices of Communications, Operations, and
Systems in their respective areas of influence.

      Policies: Recommend, interpret, and oversee implementation of the Agency's
       Web policies.
      Standards: Review Agency standards for currency.
      Procedures: Establish procedures for the review and approval of SSA's Web
       products.
      Enforcement: Establish enforcement standards for SSA's Web products.
      New and redesigned sites: Review new or substantially revised Web products
       for adherence to technical, usability, accessibility, and editorial standards.
      Operations: Provide direction, guidance, and training for Web Managers.
      Brief SSA executives on the Agency's Web products and consult with them on
       overall usage of the Web to achieve their goals.
      Interagency: Along with the Chief Information Officer and other appropriate staff,
       represent and coordinate the Agency's involvement in interagency efforts and
       other outside efforts that impact the content of SSA's Website.
      Maintenance: Coordinate with responsible components the maintenance of their
       Websites.
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      August 7, 2009                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Revised Comments on the OIG Draft Report, "Protecting Personally Identifiable Information on
           the Social Security Administration’s Intranet Sites" (A-12-09-29118)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our revised response to the report findings and
           recommendations. This response replaces the comments issued on June 24, 2009 and should be
           included as part of the final report.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“PROTECTING PERSONALLY IDENTIFIABLE INFORMATION ON THE SOCIAL
SECURITY ADMINISTRATION’S INTRANET SITES” (A-12-09-29118)


We reviewed the draft report findings and recommendations. We are pleased with the report’s
acknowledgement that we removed Personally Identifiable Information (PII) from the websites
identified in this review. Below please find responses to the specific recommendations.

Recommendation 1

Designate a component with the responsibility of (a) developing PII safeguard policies over the
Internet and Intranet and (b) ensuring adherence with these new policies.

Comment
We agree with the intent of the recommendation. We have long-standing policies that govern
the protection and disclosure of the information we maintain. These policies apply regardless of
how the information is stored (i.e., paper, electronic, or online). Since 2006, the Office of the
Chief Information Officer (OCIO) has been responsible for issuing comprehensive agency PII
policy, which covers the Internet and Intranet. OCIO published a compilation of all PII policies
and recently released a PII Frequently Asked Questions guide. OCIO will work with our
components to ensure adherence to our PII policies, including the Internet and Intranet.
Recommendation 2

Designate a component with the responsibility of periodically reviewing Internet and Intranet
sites to ensure employee and contractor PII is protected. Such reviews should become part of the
agency’s internal control structure.

Comment

We agree that periodic reviews of both the Internet and Intranet environments will help ensure
no PII resides on those sites. We believe that our current process, whereby the component of
jurisdiction is responsible for ensuring that PII is not present on the Internet and Intranet, is a
more efficient and effective review. However, given our commitment to protecting the sensitive
information we maintain, OCIO will work with the Office of Systems and the Office of
Communications to investigate the availability and suitability of automated tools to improve
these reviews.




                                               F-2
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division

   Nicholas Milanek, Audit Manager, Falls Church Office

Acknowledgments

In addition to those named above:

   Yaquelin Lara, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-12-09-29118.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
